<html>
<title> - REGULATION OF BOTTLED WATER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]











                      REGULATION OF BOTTLED WATER

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2009

                               __________

                           Serial No. 111-56



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-089                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, New Jersey            GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)









                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     3
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     5
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, prepared statement.............................   138

                               Witnesses

John Stephenson, Director, Natural Resources and the Environment, 
  Government Accountability Office...............................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................   141
Joshua M. Sharfstein, Deputy Commissioner, U.S. Food and Drug 
  Administration.................................................    20
    Prepared statement...........................................    23
Jane Houlihan, Senior Vice President for Research, Environmental 
  Working Group..................................................    39
    Prepared statement...........................................    41
    Answers to submitted questions...............................   144
Joseph K. Doss, President, International Bottled Water 
  Association....................................................    84
    Prepared statement...........................................    86

 
                      REGULATION OF BOTTLED WATER

                              ----------                              


                        WEDNESDAY, JULY 8, 2009

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Bart 
Stupak [Chairman of the Subcommittee] presiding.
    Members present: Representatives Stupak, Christensen, 
Walden, Burgess, Blackburn and Barton (ex officio).
    Staff present: David Rapallo, General Counsel; Theodore 
Chuang, Chief Oversight Counsel; Stacia Cardille, Counsel; Anne 
Tindall, Counsel; Scott Schloegel, Investigator; Jennifer 
Owens, Special Assistant; Ken Marty, HHS-OIG Detailee; Lindsay 
Vidal, Special Assistant; and Jen Berenholz, Deputy Clerk.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. This meeting will come to order.
    Today we have a hearing titled ``Regulation of Bottled 
Water.'' The chairman, the ranking member and the chairman 
emeritus will be recognized for 5-minute opening statements. 
Other members of the subcommittee will be recognized for 3-
minute opening statements. I will begin.
    Food safety is an extremely important issue that this 
committee has held nearly a dozen hearings on over the past 2 
years. Time and again we hear from individuals who want more 
information so they can make wise decisions about what they eat 
and drink. My constituents are no exception. Today's hearing on 
bottled water hits close to home. My vastly rural district in 
northern Michigan contains more shoreline than any other 
Congressional district except Alaska but we have a keen 
awareness of water quality issues. Michigan is also home to a 
large bottled water facility in Mecosta County that has not 
been without controversy over the years.
    In 2008, Americans consumed 8.6 billion gallons of bottled 
water. Bottled water is a billion-dollar-a-year industry with 
sales up more than 83 percent this decade. Many Americans 
believe that the water they drink from a bottle is healthier 
than the water that comes from their faucets. The Water 
Research Foundation found that nearly 56 percent of bottled 
water drinkers cite health and safety as the primary reason 
they choose bottled water over tap water. As a result, 
Americans are willing to pay top dollar for bottled water, 
which costs up to 1,900 times more than tap water and uses up 
to 2,000 times more energy to produce and deliver.
    Over the past several years, however, bottled water has 
been recalled due to contamination by arsenic, bromate, 
cleaning compounds, mold and bacteria. In April, a dozen 
students at a California junior high school reportedly were 
sickened after drinking bottled water from a vending machine. 
Consumers may not realize but many of the regulations that 
apply to municipalities responsible for tap water do not apply 
to companies that produce bottled water. I would like to put up 
a chart that outlines some of these differences.
    [Chart.]
    For example, municipal tap water suppliers are required to 
tell their consumers within 24 hours if they find dangerous 
contaminants that exceed federal levels but this requirement 
does not apply to bottled water companies. Certified 
laboratories must be used to test tap water but bottled water 
has no similar requirement. Tap water suppliers provide their 
customers with annual consumer confidence reports that detail 
the sources of their water, any contamination found, the likely 
cause of contamination and any potential health effects. 
Bottled water distributors are not required to provide this 
report to consumers. Instead, bottled water consumers rely on 
limited information found on labels and in some cases on 
company Web sites.
    Some companies exacerbate this problem by exaggerating 
claims about the health benefits of their products. For 
example, Poland Springs explains the history of its water by 
saying, ``When Joseph Ricker was revived from his deathbed, 
reputedly by drinking the spring's water and lived another 52 
years, the water's health benefits became legendary.'' Mountain 
Valley Water Company provides similar accounts of its water, 
stating ``Clinical tests at hospitals in New York, St. Louis 
and Philadelphia demonstrated improvements in the health of 
patients suffering from kidney and liver disorders and 
rheumatism as a result of drinking Mountain Valley Water.'' 
Aquamantra spring water explains that the words written on its 
labels, mantras such as ``I am healthy'' and ``I am loved'' 
permeate the liquid, influencing the taste and beneficial 
properties of water. The company also claims that Aquamantra 
uses the design of its label to affect the molecular structure 
of the water.
    Today the subcommittee will receive two new reports that 
raise questions about why the regulations governing bottled 
water are weaker than those governing tap water, as well as 
widespread public perception that bottled water is healthier 
than water from the tap. The first is a report by the 
Government Accountability Office that was originally requested 
by our former colleagues, Hilda Solis and Al Wynn. In this 
report, GAO examines whether federal and State authorities are 
adequately ensuring the safety of bottled water and the 
accuracy of claims regarding its purity and health benefits. 
The second report is by the Environmental Working Group, which 
conducted an 18-month survey of bottled water labels and Web 
sites and concluded that just two of the 188 bottled water 
companies surveyed provided consumers with information on the 
source of their water, the manner in which it is treated and 
any contaminants present. Given these findings by GAO and 
Environmental Working Group, the subcommittee is sending today 
to a dozen bottled water companies letters requesting 
information on the source of their water, their treatment 
methods and results of their contaminant testing for the past 2 
years.
    Even when water is treated at municipal facilities and then 
bottled, there still may be questions about contaminants such 
as pharmaceuticals that may be present in the treated water. 
Environmental Working Group reports an estimated 25 percent of 
bottled water brands that rely on tap water are drawing from 
supplies that collectively contain 260 pollutants. According to 
Associated Press, drugs have been found in municipal water 
samples across the country. Officials in Philadelphia 
discovered 56 pharmaceuticals or byproducts in treated drinking 
water. Anti-epileptic and anti-anxiety medications were 
detected in the treated drinking water for 18.5 million people 
in southern California. And drinking water here in Washington, 
D.C., and surrounding areas testified positive for six 
pharmaceuticals. For these reasons, I have introduced H.R. 
1359, the Secure and Responsible Drug Disposal Act of 2009, 
which will provide for proper disposal through drug take-back 
programs so individuals are not simply flushing their 
medications down the toilet into our water systems. I am also 
proud to be the original cosponsor of the Food Safety 
Enhancement Act of 2009, which passed out of this committee 
last month and which is again ready for Floor action, and which 
provides FDA with much-needed authority to assessing testing 
records of food and water supplies.
    I look forward to today's hearing, and I ask for unanimous 
consent that reports issued today and the other documents in 
the binder prepared by staff be entered into the official 
record. Without objection, they will be entered in the record 
and will be used throughout the hearing.
    Mr. Stupak. I next would like to turn to my friend, Mr. 
Walden from Oregon, for his opening statement, please.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Stupak.
    My home State of Oregon and the 2nd Congressional district 
which I represent is home to a number of water bottlers 
including those located in the small central Oregon community 
of Culver, EARTH20, and the eastern Oregon town of Cove with 
Artesian Blue, and in the northern portion of my district in 
The Dalles, H2 Oregon. These successful businesses are in many 
cases providing much-needed job opportunities in areas of 
Oregon that have been hard hit by today's weak economy. In 
fact, Mr. Chairman, our unemployment rate is second only to 
yours in Michigan.
    Today's hearing raises some valid questions regarding the 
differences in regulation between the Food and Drug 
Administration and the EPA regarding bottled water. However, I 
should note, concern that with all of the life-threatening 
health priorities facing the FDA including numerous foodborne 
illness outbreaks, complications with acetaminophen and swine 
flu pandemic, this issue does to me seem a little secondary in 
terms of the FDA's overwhelming workload on other issues.
    We should also put this hearing in context. The two reports 
that are the focus of today's hearing point out a few 
noteworthy findings but do not assess the safety of the bottled 
water itself. Neither the Government Accountability Office, 
GAO, nor the Environmental Working Group, EWG, conducted any 
testing of the bottled water or the bottles themselves while 
completing their reports. The regulations for bottled water do 
differ from those promulgated for tap water, mostly because 
bottled water is considered a food product and is therefore 
regulated by the Food and Drug Administration, whereas tap 
water is regulated by the Environmental Protection Agency. 
However, FDA does require that the standards of quality for 
bottled water must be no less protective of public health than 
the EPA standard. Under the FDA regulations, bottlers must 
follow current Good Manufacturing Practices, also known as 
GMPs.
    FDA actually requires more safeguards from water bottlers 
than other food processors. The GMPs for bottled water are 
commodity specific. Under these GMPs, bottlers must, among 
other things, test their source of water once a week for 
microbiological contaminants and test finished bottled water 
weekly for microbiological contaminants. Now, some of the water 
bottlers in my district follow a practice of testing their 
water every hour in order to meet the requirements of 
purchasers of their products, so they are doing hourly water 
testing.
    I do have a few questions for FDA. One discrepancy between 
EPA and FDA is in the case of a chemical substance called DEHP. 
This is a phthalate, a substance added to plastics to change 
their physical characteristics, and I am sure you are familiar 
with it. FDA has yet to establish a standard for this 
contaminant in bottled water, even though the EPA did over a 
decade ago. An FDA taskforce is supposedly examining the 
information surrounding DEHP and I want to ask the deputy 
commissioner when we can expect a ruling from your agency. And 
the question that I will speak to in a minute is about recycled 
bottles themselves. I have some tell me that the use of 
recycled bottles perhaps produces more leaching or whatever it 
is that comes out of the plastic than first-time use, and I 
would be curious to know if that is the case.
    Conducting inspections is one way the FDA ensures the 
bottlers are following GMPs. Concerns have been raised on how 
frequently the plans are inspected and what access FDA 
inspectors have to plant records regarding testing and other 
important information during the inspection, and I would be 
curious to know the legislation passed unanimously out of the 
full committee that expands FDA's inspection process, if that 
would apply in these cases and therefore you will get new 
authority if the House and the Senate Act. I would like to hear 
from the deputy commissioner as well on how the agency can 
improve the inspection process and if you do need any 
additional authorities. Congress needs to act. We need to know 
exactly what the agency needs and why. Currently, bottlers are 
not required to disclose the source of their water, the 
treatment process used or the detection of any contaminants. 
The question is, should they, and I look forward to your 
response on that.
    Mr. Chairman, I would conclude by thanking you for this 
hearing but I would also like to raise the issue that July 8th 
has come and gone. A number of us on this side of the aisle 
have raised questions of the Environmental Protection Agency 
regarding bottled-up science, and we expect the EPA to respond 
to our inquiries regarding Dr. Allen Garland and his report 
that is not allowed to be considered in the endangerment 
finding process, and if the EPA is unwilling to respond in a 
timely manner, which may well be the case, I do hope that our 
request of this subcommittee to have an oversight hearing on 
what appears to be the bottling up of science and debate on the 
whole carbon issue will be granted an opportunity for a hearing 
and a full investigation. So we will be coming back to you on 
that issue, and I thank you for your time.
    Mr. Stupak. Thank you, Mr. Walden.
    Ms. Blackburn, opening statement, please.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I do want to 
welcome our witnesses and thank them for being with us today.
    As you have heard, we all are concerned about bottled 
water, the product that is there. We are also concerned about 
tap water and the work the EPA does there. And I will submit a 
written statement. Mr. Chairman, I want to take my time to just 
say I would prefer that we be spending this time to look at 
other issues that are important to our constituents that the 
FDA and EPA deal with. There are other committee issues that we 
could be looking at such as the options for reducing health 
care costs for our constituents and looking at how you do that 
through patient-driven, consumer-driven, patient-centered 
health care. We should be looking at the Medicare trust fund 
and the pressures that are on that trust fund, the ballooning 
costs of Medicaid if we move to a public option as we move into 
health care reform or even from my State, the lessons that 
should have been learned from TennCare, which was the test case 
for Hillary Clinton health care back in 1994. My State still 
has this. It is the greatest public health care in the country. 
That would be a great opportunity for us to look at what is 
affecting us with health care. Certainly there are more 
pressing issues. We are appreciative of your time to be before 
us today, and while we all are concerned with leaching 
chemicals that come from plastics into bottled water, we are 
indeed very concerned with what we see as sequestering evidence 
from EPA employees. We are concerned with what we see, health 
care issues that are affecting all of our constituents and a 
lack of willingness to address those in a patient-centered, 
consumer-driven manner, and I yield back my time.
    Mr. Stupak. Thank you. Let me just respond that, you know, 
we had a hearing just before we broke here not even 2 weeks ago 
on health insurance on rescissions where companies rescind 
health care to people who have it, and next week is scheduled 
all week in committee for the health care markup bill, so I am 
sure we will have plenty of opportunities to speak of health 
care.
    Mr. Burgess for opening statement, please.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman, and maybe I should 
take a second to respond to your response, and isn't it a shame 
that we have a Subcommittee on Health within the Committee on 
Energy and Commerce and we are to have no markup on what is 
going to be the greatest change in the delivery of health care 
in America since the institution of Medicare in 1965. Certainly 
the people who were in Congress in 1965 likely could have never 
foreseen what Medicare would become, at least as far as the 
price of that federal program, and wouldn't we all be in better 
shape today if perhaps a little more care was taken back in 
1965 and the object lesson for us today is, we need to take 
good care and exercise due caution as we structure this major 
fundamental change to American health care.
    We also could have had a hearing on medical devices in this 
subcommittee, which I have asked for for some and has yet been 
forthcoming, so there are ways we could have made use of this 
time today, Mr. Chairman, but here we are and we are going to 
talk about bottled water this morning, and that is important. 
Normally I have a bottle of water here so that if I get parched 
in the hour that I have to address the committee, but now we 
are stuck with D.C. water which there used to be a little sign 
in my office in the Longworth Building that said do not drink 
the tap water. I don't know if that has changed but I am a 
little reluctant to drink what is before us today.
    A pretty broad definition of food would be one that 
included bottled water, and the tremendous breadth and depth of 
the responsibility entrusted to our good friends at the Food 
and Drug Administration is this $11 billion industry known as 
bottled water. The average American consumer is unlikely to 
think that the FDA would be the primary regulator of bottled 
water but it is. The regulatory responsibility of bottled water 
is split between the Environmental Protection Agency and the 
federal Food, Drug and Cosmetic Act with the Food and Drug 
Administration overseeing the process of taking public water in 
its natural form in the environment into a convenient plastic 
container for sale to the American consumer.
    Now, as much I appreciate the collegiality, the 
intelligence and the willingness of Dr. Sharfstein to appear 
here today as a representative of the Food and Drug 
Administration, it does seem odd to only have the Food and Drug 
Administration here to answer tough questions and to not have 
the Environmental Protection Agency to answer questions that 
would fall into their jurisdiction about the standards for 
municipal water versus bottled water. Currently, bottled water 
requires a higher threshold of testing than municipal water. 
Municipal water is required to be tested every 4 years, bottled 
water every year. In fact, bottled water is currently one of 
the few stand-alone industries with its own Code of Federal 
Regulations regarding Good Manufacturing Processes. From the 
definition of water to the testing and sampling of products, 
from the length of time the records must be kept, currently 2 
years, and how they should be available to the Food and Drug 
Administration as well as the role of the Environmental 
Protection Agency, the State and local government agencies in 
helping to ensure the safety and sanitation and quality of 
water, this burgeoning industry has seemingly existed in a 
compliance-oriented manufacturing system rarely, if ever, 
producing bad actors. It would seem that this industry is an 
example of the ingenuity and innovation of the marketplace to 
create a product which had, if you will pardon the pun, an 
unquenchable need for a convenient, transportable water and 
this good idea has been met with significant market success.
    We must ensure that the trust and faith of consumers and 
that the government places in the bottled water industry are 
not misguided. More Americans drink bottled water than milk or 
beer combined, so if there is any step in this multilayer 
process to deliver this food product where the trust and faith 
is misallocated, then certainly I look forward to having the 
science point to a solution. Furthermore, any deficiencies in 
the regulation of bottled water, any potential fraud in the 
process of producing bottled water and any alleged 
environmental issues of draining of our natural resources and 
the burdensome transportation costs of moving the end product, 
we will certainly look forward to seeing what is sure to be 
voluminous evidentiary proof.
    Thank you, Mr. Chairman, for your indulgence. I will yield 
back the balance of my time.
    Mr. Stupak. No problem. I didn't want you to get parched. 
As you know, in the Health Subcommittee, you guys did hold a 
hearing on medical devices last month and the 510K approval 
process, so those hearings are being taken. This hearing----
    Mr. Burgess. But I would submit the investigatory part of 
that has not been completed, as least to my satisfaction, and I 
think this subcommittee would be the appropriate place to have 
that. In addition, we have got the whole question of 
biosimilars out there that would probably just roll into this 
health care bill and we have not had the FDA in to talk to us 
about the science of biosimilars. So there is stuff we could be 
doing, is the point I am trying to make.
    Mr. Stupak. Absolutely, and this committee has been very 
active, as you know, for the last 2 years and we hold many, 
many hearings, and this one with the two reports being released 
today, it really dovetails into everything we have been doing 
for the last couple of years in food safety, and whether it is 
BPA or the PET that we talked about here, or as Mr. Walden 
brought up, the DEHP, why has it taken 15 years to put out 
regulations for that, certify labs' test results, all that is 
contained in this hearing so it is not just strictly bottled 
water, false advertising. That is what this whole thing is 
about, sort of wraps up everything we have been doing for the 
last few years, and we do have these two reports coming out 
today so we thought it was appropriate to have the hearing 
today. Very good.
    Mr. Barton, opening statement, please.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. Let me say before I 
give my prepared statement how much I personally appreciate 
you, so don't take some of what I am about to say too 
personally.
    But I think it does say something, given the serious issues 
which you have traditionally tackled as your subcommittee 
chairmanship along with Ranking Member Walden that today's 
hearing does not rank at the top of that list, and it shows 
when you look on your side how much support there is. They may 
all be here but they are disguised as empty chairs, if they 
are.
    Mr. Stupak. Well, you know, most of the committee is down 
in the Consumer Protection because we are putting a new 
administrator in there and that is where most of them are. In 
fact, that is why we started a little late because I am also on 
that subcommittee and I had to stop by there.
    Mr. Barton. Well, Greg and I will take over if you want to 
go down there.
    Mr. Walden. Could we have a vote on that right now?
    Mr. Barton. Anyway, Mr. Chairman, today's hearing does 
examine several interesting questions surrounding the 
differences between bottled water and tap water. These 
differences arise in regulatory approaches as well as in 
processing, treatment and public perception. Several of the 
witnesses today including the Government Accountability Office 
and the Food and Drug Administration will discuss and possibly 
debate ways in which bottled water regulations should be 
changed and possibly improved. Other witnesses including the 
Environmental Working Group and the International Bottled Water 
Association will discuss ways industry can be more transparent 
and responsive to consumer inquiries. I don't have a problem 
with transparency, in fact, I am pushing transparency in the 
upcoming health care debate, and as you well know, I am 
certainly pushing transparency at the Environmental Protection 
Agency where Mr. Walden and I have asked the EPA to release 
their documents concerning their suppression of the EPA report 
within its own agency debating whether there really is an 
endangerment finding with regard to CO<INF>2</INF>.
    So those of us on the minority are concerned whether this 
particular hearing is the best use of our limited oversight 
hearing times. We have confronted the issue of swine flu 
pandemic. We have confronted safety of products like Tylenol. 
As I said a minute ago, Mr. Chairman, this one just doesn't 
seem to be up to that standard of excellence which you have 
established for your oversight. I hope that after this hearing 
you will consider supporting Mr. Walden and myself on getting 
information about the EPA's suppression of the document which 
we call Carbon Gate regarding the CO<INF>2</INF> and the 
endangerment finding. We also hope that you will work with us, 
as I talked with you yesterday informally about doing more 
hearings and doing some action times on the automobile dealer 
closure issue. I know that is something that is very important 
to you personally. We await your response and Mr. Waxman's 
response.
    So Mr. Chairman, we always appreciate when you hold a 
hearing. We always participate and we are looking forward to 
going on to a little bit more intense issues in the future. 
Again, thank you for holding this hearing.
    Mr. Stupak. Well, thanks, Mr. Barton. And, you know, one of 
the reasons why we are having this hearing because I think as 
we have seen on your side a little bit, maybe we assume because 
it is in a bottle like this it is healthy, it is clean, it is 
pure, and that is an assumption I think we erroneously are 
making, so we are doing a hearing to try to get to the issues 
here because I don't think we have to wait for a deadly 
outbreak of disease in bottled water like we have seen in 
salmonella in peanut butter last year, and we can't say there 
is zero risk here. Between 2002 and 2008, there were 23 recalls 
of bottled water. Now, that is about one every quarter. Most of 
them stemmed from an elevated level of contaminants such as 
arsenic and bromate, both of which cause cancer. Over the past 
6 years the FDA has issued three warning letters to bottled 
water companies for violating safety regulations, and that is 
in addition to dozens of other problems found in the EPA 
inspections at water bottling facilities.
    In 2007, the FDA issued a press release against drinking 
mineral water imported from Armenia because the arsenic level 
was 50 times greater than the federal standard. And then, like 
I said, last month in southern California, we have girls sick 
at a high school who were buying bottled water out of a vending 
machine. So these are problems the FDA has uncovered and they 
only have about two or three employees devoted to it, and like 
I said earlier, I think just because it comes in a bottle, we 
assume it is healthier for us. That is what most Americans 
assume. We find that is not the case and that is the reason for 
the hearing, and all the other things we have done this year on 
salmonella, institutional review boards, dual use, so we have 
got a lot going on here.
    Mr. Walden, go ahead.
    Mr. Walden. Well, Mr. Chairman, just two points, one I 
didn't mention in my testimony but I know that water is also an 
ingredient in many other drinks, and I guess the question I 
would have for our panel is, well, just because it is clear and 
in those bottles, how is that treated or monitored versus if it 
is colored and sugared and perhaps carbonated. Does somebody 
check the water that goes into that as well? Are there 
different standards there? The second point I would make on, I 
think it is Santa Clara, the junior high students, my 
understanding is that the FBI may be involved in investigation 
there so it might be more of a tampering issue. Is that 
correct?
    Mr. Stupak. They are involved but no one has reached a 
conclusion whether it is tampering.
    Mr. Walden. Right. I understand. I wasn't trying to jump to 
a conclusion. Thank you, Mr. Chairman.
    Mr. Stupak. OK. You bet. That is a good segue into our 
first panel. Let me introduce our first panel of witnesses with 
Mr. Joseph Stephenson, who is director of National Resources 
and the Environment at the Government Accountability Office. We 
have Dr. Joshua Sharfstein, who is the principal deputy 
commissioner at the U.S. Food and Drug Administration, Ms. Jane 
Houlihan, who is the senior vice president for research at the 
Environmental Working Group, and Mr. Joseph K. Doss, who is the 
president of the International Bottled Water Association.
    It is the policy of this subcommittee to take all testimony 
under oath. Please be advised that you have the right under the 
rules of the House to be advised by counsel during your 
testimony. Do you wish to be represented by counsel? Mr. 
Stephenson.
    Mr. Stephenson. No.
    Mr. Stupak. Dr. Sharfstein, Ms. Houlihan? No. OK. Then I am 
going to ask you to please rise and raise your right hand to 
take the oath.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect that the witnesses have 
replied in the affirmative. You are now under oath. We will now 
hear 5-minute opening statement from our witnesses. You may 
submit a longer statement for the record and would be included 
in today's hearing. Mr. Stephenson, we will start with you.

 TESTIMONY OF JOHN STEPHENSON, DIRECTOR, NATURAL RESOURCES AND 
 THE ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE; JOSHUA M. 
      SHARFSTEIN, DEPUTY COMMISSIONER, U.S. FOOD AND DRUG 
   ADMINISTRATION; JANE HOULIHAN, SENIOR VICE PRESIDENT FOR 
  RESEARCH, ENVIRONMENTAL WORKING GROUP; AND JOSEPH K. DOSS, 
       PRESIDENT, INTERNATIONAL BOTTLED WATER ASSOCIATION

                  TESTIMONY OF JOHN STEPHENSON

    Mr. Stephenson. Thank you, Mr. Chairman and Mr. Walden. I 
am pleased to be here today to discuss the quality and safety 
of bottled water and its environmental impacts.
    Over the past decade, the per capita consumption of bottled 
water in the United States has more than doubled from 13.4 
gallons per person in 1997 to 29.3 gallons per person in 2007. 
That is over 200 bottles a year for every man, woman and child 
and an $11 billion plus market. With this increase come several 
questions and concerns over bottled water's quality and safety. 
My testimony is based upon the report that we are issuing to 
the committee today which is going to be publicly released.
    In summary, we found that FDA's safety and consumer 
protections are less stringent for bottled water than 
comparable EPA protections for tap water. While FDA's standards 
for bottled water generally mirror the standards for nearly all 
of the 88 contaminants covered by EPA's national primary 
drinking water regulations, there is one notable exception, 
DEHP, which is a plasticizer used to soften plastic, which has 
been linked to reproductive and liver problems and increased 
cancer risk. It has been regulated by the EPA in tap water 
since 1992 but FDA deferred action on DEHP in a rule published 
in 1996 and has yet to either adopt a standard or publish a 
reason for not doing so, even though the statutory deadline for 
acting was more than 15 years ago. Since DEHP is used in food 
packaging as well as bottled water, this is a broader issue 
that FDA is still studying. Nevertheless, our report recommends 
that FDA expeditiously promulgate a DEHP standard for bottled 
water.
    More broadly, we found that FDA, unlike EPA, does not have 
the statutory authority to require bottlers to use certified 
laboratories for water quality tests or to report test results, 
even if violations of the standards are found. Most tests are 
done by the bottlers themselves. Several states have 
requirements to safeguard bottled water that exceed those of 
FDA but are still less comprehensive than for tap water. In 
addition, while FDA bottled water labeling requirements are 
similar to labeling requirements for other foods, they provide 
consumers with far less information about the source and 
quality of water than what EPA requires of public water systems 
under the Safe Drinking Water Act. For example, public water 
systems must annually provide consumer confidence reports that 
summarize water quality information about the water sources, 
detected contaminants and compliance with national primary 
drinking water regulations as well as information on the 
potential health effects of certain contaminants. FDA does not 
require bottled water companies to provide similar information. 
In a study mandated by the 1996 amendments to the Safe Drinking 
Water Act, FDA concluded that it was feasible for the bottled 
water industry to provide the same type of information to 
consumers that public water systems must provide. However, the 
agency was not required to act on its findings and has yet to 
do so.
    A survey of 50 States and the District of Columbia showed 
that consumers have misconceptions about bottled water, 
believing that it is safer and healthier than tap water. We 
also found that information comparable to what public water 
systems are required to provide to consumers of tap water was 
available for only a small percentage of the 83 bottled water 
labeled we examined, companies we contacted or company Web 
sites we reviewed. We believe that consumers would benefit from 
better information on the quality and safety of bottled water, 
and our report also recommends that FDA implement the results 
of this study to accomplish this.
    In examining the environmental effects of bottled water, we 
found that only about 25 percent of water bottles are recycled 
and that the remaining 75 percent are discarded in municipal 
landfills where they never decompose and essentially remain 
forever. While this is over 900,000 tons of plastic annually, 
it represents less than 1 percent of municipal waste.
    Another issue is the amount of energy used to manufacture 
and transport bottled water. Another study estimates the energy 
use at 5.8 megajoules per liter. At the current rate of 
consumption, this is the equivalent of the energy used by 4.7 
million households for a year and is 1,000 to 2,000 times the 
energy used for tap water. We also found that groundwater 
extraction for bottled water facilities in selected areas and 
that Michigan and other States have passed laws to minimize the 
impact of stream levels and wetlands.
    Finally, I would note that some of our bottled water 
findings are indicative of FDA's overall food safety oversight 
problems that led to GAO's designating it a high-risk area in 
January 2007 and again in 2009 when we called for a fundamental 
reexamination of the federal food safety system. We believe 
that FDA's lack of authority and resources to effectively 
regulate bottled water should be part of that reexamination.
    Mr. Chairman, that concludes the summary of my statement 
and I will be happy to answer questions at the appropriate 
time.
    [The prepared statement of Mr. Stephenson follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Stupak. Thank you, Mr. Stephenson.
    Dr. Sharfstein, would you like to make your opening 
statement?

               TESTIMONY OF JOSHUA M. SHARFSTEIN

    Dr. Sharfstein. Thank you very much. We appreciated the GAO 
report, and I especially appreciate that he finished with 
exactly 2 seconds left. I was watching. I have never seen that 
before.
    Good morning, Mr. Chairman and members of the subcommittee. 
I am Dr. Joshua Sharfstein, the principal deputy commissioner 
of the Food and Drug Administration of the Department of Health 
and Human Services. I want to thank the committee for your work 
on a wide range of health issues and for the opportunity to 
discuss FDA's regulation of bottled water today.
    As has been mentioned, bottled water and tap water are 
regulated by two separate agencies. FDA regulates bottled water 
while the EPA regulates tap water, also referred to as 
municipal water or public drinking water. EPA has regulations 
on the production, distribution and quality of public drinking 
water including source water protection, operation of drinking 
water systems, contaminant levels and reporting requirements.
    The Food, Drug, and Cosmetic Act provides FDA with 
regulatory authority over food and as part of that, bottled 
water that is introduced into interstate commerce. Under the 
Food, Drug, and Cosmetic Act, manufacturers are responsible for 
producing safe, wholesome and truthfully labeled food products. 
It is a violation of the law to introduce into interstate 
commerce adulterated or misbranded products.
    FDA has established specific regulations for bottled water 
in the Code of Federal Regulations. These regulations include 
standard identity regulations that define different types of 
bottled water such as spring water versus mineral water and 
standard quality regulations that establish allowable levels 
for chemical, physical, microbial and radiological 
contaminants. FDA has established Good Manufacturing Practice 
regulations for the processing and bottling of bottled drinking 
water. Labeling and GMP regulations for foods in general also 
apply to bottled water. Federal law requires FDA to set similar 
standards for bottled water as exist for municipal water or 
explain why they should not apply. FDA has established such 
standards for more than 90 contaminants and in some cases such 
as for lead or copper, the FDA limits are stricter for bottled 
water than for municipal water. And another point to make in 
this regard is that the way that the testing is done is 
different. For example, take the lead standard. Any test that 
is high is violative when that is done on FDA-regulated bottled 
water; for the municipal water only a percentage of the samples 
is above a certain level. The municipal water supply failed 
that. So they are allowed to have certain failures and not have 
it as a failure for the municipal water supply. So it just 
illustrates that there is a different approach that is taken in 
a few contexts.
    FDA monitors and inspects bottled water products and 
processing plants as part of the general food safety program. 
Inspections occur approximately once every 1 to 3 years. The 
agency inspects violative firms more frequently, depending on 
the number, significance and recurrence of violations. FDA's 
field offices follow up on consumer and trade complaints and 
other leads on potentially violative bottled water products. As 
for other types of food, FDA periodically collects and analyzes 
samples of bottled water. Samples of foreign bottled water 
offered for entry may be collected and tested to determine if 
they are in compliance with the laws and regulations, and labs 
may test the water for microbial, radiological or chemical 
contamination.
    In recent years, FDA has promulgated a number of quality 
standards for bottled water in conjunction with EPA. Most 
recently, on May 29, 2009, FDA published a final rule to 
require that bottled water manufacturers test source water and 
finished bottled water products for total coliform organisms 
and to prohibit distribution of products containing any E. 
coli, an indicator of fecal contamination. FDA is also 
requiring that before a bottler can use source water from a 
source that has tested positive for E. coli, the bottler must 
take appropriate measures to rectify or eliminate the cause of 
the problem, and the bottler must keep records of such actions.
    In general, FDA's oversight of bottled water, I think can 
be described as successful. The agency is aware of no major 
outbreaks of illness or serious safety concerns associated with 
bottled water over the past decade. FDA is aware the GAO report 
released today highlights a number of issues that the agency 
faces in regulating bottled water. FDA has worked with GAO to 
provide information and assist with their investigation.
    Let me address some of the issues that GAO has raised, and 
let me say that while I do believe that FDA's oversight has 
been generally successful, I also believe that there is room 
for improvement. First, GAO found that FDA has not yet set a 
standard for the phthalate known as DEHP. This was contemplated 
in 1996 but the Administration at the time did not pursue this 
because of a legal issue we could discuss further if you want 
known as prior sanction. We are now revisiting this decision 
and intend to pursue a DEHP standard as anticipated under the 
law.
    Second, GAO found that FDA labeling regulations for bottled 
water provided for less information about the sources and 
quality of water than required by FDA for municipal systems. 
FDA has found that it would be feasible for manufacturers of 
bottled water to provide such information to consumers. 
However, the Food, Drug and Cosmetic Act does not provide a 
mechanism to require bottlers to make that information 
available so Congress would have to take additional action.
    Third, GAO expressed concern that FDA cannot require the 
submission of results to the agency on tests conducted by 
bottled water manufacturers. This is a fair point and a part of 
the oversight of water and food in general that should be 
strengthened. In fact, it would be strengthened by the food 
safety legislation that the committee is showing so much 
leadership on.
    Fourth, GAO has pointed out that FDA does not have specific 
authority to mandate the use of certified laboratories. This is 
also a reasonable point, and FDA does require the use of 
methods that are at least as sensitive as FDA's methods but the 
food safety legislation passed by the committee would also be 
extremely helpful here.
    I would also mention that the food safety legislation 
provides for food safety plans, hazard analyzes and preventive 
controls that will complement FDA's Good Manufacturing 
Practices for bottled water facilities and generally strengthen 
the system of oversight for bottled water, and for foreign-
produced bottled water, the Act would require importers to 
register with FDA, comply with Good Importer Practices and give 
FDA the authority to require certification as a condition of 
importation.
    So we will continue to work with this committee on the 
legislation, which we think is very important, and I am pleased 
to be here and look forward to your questions.
    [The prepared statement of Dr. Sharfstein follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Stupak. Thank you, Doctor.
    Ms. Houlihan, would you pull that mic over.

                   TESTIMONY OF JANE HOULIHAN

    Ms. Houlihan. Mr. Chairman and members of the subcommittee, 
I am Jane Houlihan, senior vice president for research at 
Environmental Working Group. We are a nonprofit research and 
advocacy organization in Washington, D.C. Thank you for holding 
this hearing.
    Today we are releasing an 18-month survey of labels and Web 
sites for 188 bottled waters. Here is what we found. Consumers 
spent about 1,900 times more for bottled water than for tap 
water yet they often have no way to learn essential facts about 
what is actually in the bottle. Only two of 188 bottled waters 
make public three basic facts routinely disclosed by local tap 
water utilities. These are the specific name and location of 
the water source, purification methods and chemical pollutants 
that remain in the water after treatment. These two brands are 
Ozarka Drinking Water and Penta Ultra-Purified Water, the only 
two of 188 doing so.
    Bottled water companies are not required to make these 
basic facts public, and here is the reason: they enjoy a 
regulatory holiday under the federal Food, Drug and Cosmetic 
Act with near-complete latitude on what, if any, information to 
share with consumers. In contrast, every one of the Nation's 
52,000 municipal water suppliers produces an annual water 
quality report giving its water source and pollutant testing 
results as required under the Safe Drinking Water Act. EPA 
calls these reports the centerpiece of consumers' right to know 
about water quality.
    This double standard is unfair to consumers who have a 
right to know what is in the water they buy. Surveys show that 
over half of bottled water drinkers choose it because they are 
worried about the safety of their tap water. They believe it is 
free of contaminants. They do it for their health. But in too 
many cases, consumers have no way to check if the purity they 
are looking for is what they are actually getting.
    So where does the water come from? Our survey found that 30 
percent of bottled waters provide no information whatsoever 
about their water source on the label but 37 percent fully 
divulge both the name and location of their water source, and 
the remaining 33 percent give generic information like spring 
or deep aquifer. If you could look at figure 1 in your packet, 
please, this is a brand that is doing the right thing. It is 
Great Value. It is called in your figure a smaller brand. It is 
not in the top 10 but it is actually distributed by Walmart. 
You will see on the label the source clearly indicated as 
municipal supply, Fort Worth, Texas, so you know exactly where 
this water comes from. You will also see the treatment method 
on this label, reverse osmosis. Let us look at the next figure 
by way of contrast. On the other end of the spectrum is Dasani. 
On this label, you will see that the product is pure and it is 
crisp and it has a fresh taste but nowhere on this label will 
you find the source of that water. Dasani is one of 30 percent 
of the brands not giving any information on source along with 
Whole Foods, Food Lion, CVS, Kroger store brands and many other 
brands.
    How is bottled water purified? Bottled water companies are 
not required to disclose what, if any, methods they use to 
purify their water. Municipal water suppliers aren't required 
to disclose this information either but most of them do. We 
found that 44 percent of bottled waters provide no treatment 
information on labels. One-third provide no information on 
labels or Web sites.
    If you look at figure 2 in your packet, you will see a 
label for Ozarka. This is a Nestle brand that is actually doing 
the right thing. You will see on this label the water comes 
from the Houston municipal water supply, but it doesn't stop 
there. It is further treated by reverse osmosis, carbon 
filtration, microfiltration and ozonation. Now, for contrast, 
let me read to you what you will see on a Fiji label. ``The 
purest water comes from the purest clouds. Our rainfall is 
purified by trade winds as it travels across the Pacific Ocean 
to the islands of Fiji,'' and that is all the information you 
will see on treatment on that label, and Fiji is one of the 60 
percent of bottled waters that print marketing claims of purity 
from among those waters that don't label their treatment 
methods. Consumers have no way to know if the claims are true.
    What pollutants are in bottled water? Every tap water 
utility publishes an annual water quality report listing all 
their results for the year but only 18 percent of bottled 
waters do the same. Those that do include all eight domestic 
Nestle brands. Those that don't include Aquafina, which is a 
Pepsi brand, and figure 3 of your packet. Without data, 
consumers are left with marketing claims, and these are 
extensive. You have heard Poland Springs, a man who lived 52 
additional years after drinking the water. Mountain Valley 
Springs became known as a remedy for the treatment of gout, 
rheumatism and other diseases. Evian claims its water is a 
symbol of health, general well-being. Valdix water is extremely 
pure but they don't publish a test report. And finally, 
Aquamantra's water resonates with the energy and frequency of 
well-being. When you pay a premium price for bottled water, you 
deserve more than just claims. We recommend that bottled water 
labels and Web sites disclose the same information that the law 
requires of municipal water utilities and that this disclosure 
be mandatory. Consumers have a right to know where their 
bottled water comes from, how or if it is treated and the 
pollutants it contains.
    Thank you for your time.
    [The prepared statement of Ms. Houlihan follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Stupak. Thank you.
    Mr. Doss, your opening statement, please, sir.

                  TESTIMONY OF JOSEPH K. DOSS

    Mr. Doss. Chairman Stupak, Ranking Member Walden and 
members of the subcommittee, my name is Joe Doss. I am 
president and CEO of the International Bottled Water 
Association. I appreciate very much this opportunity to discuss 
the regulation of bottled water.
    Bottled water, whether in retail-size packages or in larger 
containers used in home and office water coolers, is a safe, 
healthy, convenient beverage. It is comprehensively regulated 
as a packaged food product at both the federal and State level, 
and as with other packaged food and beverages, bottled water 
must meet FDA's general food regulations which include 
extensive labeling requirements for ingredients, the name and 
place of business of the manufacturer, packer or distributor, 
the product's net weight, and if required, nutrition labeling. 
In addition, FDA has promulgated separate standards, as we have 
heard, separate standards of identity including labeling 
requirements that identify the type of bottled water, standards 
of quality and good manufacturing practices specifically for 
bottled water. Federal law requires FDA bottled water 
regulations to be as protective of the public health as EPA 
standards for public drinking water systems, and to that end, 
FDA has established bottled water standards for quality for 
more than 90 substances. Most FDA bottled water quality 
standards are the same as EPA's maximum contaminant levels for 
public water systems. The few differences in regulated 
substances are because they are not found in bottled water or 
they are regulated under another provision of law such as FDA's 
food additive program.
    If a container of bottled water has a contaminant that 
exceeds an FDA standard, this fact must by law be disclosed on 
the label. Failure of a bottled water container to meet the 
standards of quality and to be properly labeled can subject it 
to recall by the company and enforcement action by FDA. If a 
bottled water product source is a public water system and the 
finished bottled water product does not meet the FDA standard 
of identity for purified or sterile water, that product label 
must disclose the fact that it comes from a public water 
source.
    It is also important to note that the courts have held that 
FDA's jurisdiction over food and beverages extends not only to 
those products that move in interstate commerce but to those 
products sold within a single State if they are using packaging 
materials that have moved in interstate commerce such as the 
bottle, the caps or the labels, and that is the case for almost 
every bottled water sold in the United States. In addition, 
Congress has created a statutory presumption of interstate 
commerce for all FDA-regulated products including bottled 
water.
    Now, while the current laws regulating bottled water 
products protect the public health, IBWA members and others in 
the food industry have recently worked with the Energy and 
Commerce Committee to update the food safety laws. IBWA 
supports a risk-based inspection system that would require 
inspections of all food facilities every 6 months to 3 years, a 
requirement for all food manufacturers to conduct a hazard 
analysis and establish and maintain preventive controls which 
all IBWA members already do as a condition of membership in 
granting FDA authority to mandate recall under circumstances 
where a food product presents an imminent threat of serious 
adverse health consequences or death.
    IBWA supports a consumer's right to clear, accurate and 
comprehensive information about the bottled water products they 
purchase. As I mentioned, all packaged food and beverages 
including bottled water are subject to extensive FDA labeling 
requirements that provide consumers with a great deal of 
product quality information. In addition, virtually all bottled 
water products include a phone number on the label that 
consumers can use to contact the company. In fact, IBWA 
petitioned FDA in 2001 to require all bottled water labels to 
include a phone number on the label. IBWA believes that the 
most feasible way to consumers to obtain information not 
already on the label is through a request to the bottler. In 
addition, consumers can go to the IBWA Web site to obtain 
contact information or water quality information for all IBWA 
member brands.
    Consumers have many options when choosing which bottled 
water brand to drink. If a bottled water company does not 
provide them with the information that they want, he or she can 
choose another brand of bottled water. That is not the case 
with tap water. Consumers cannot choose which public water 
system is piped into their homes, and that is a fundamental 
issue: consumer choice.
    Unfortunately, many people want to make this out to be a 
bottled water versus tap water issue. We just don't see it that 
way. If people are drinking water, whether it is tap or 
bottled, that is a good thing and consumers should be free to 
choose. In fact, 75 percent of consumers who drink bottled 
water also choose to drink tap water. IBWA supports investments 
to improve the U.S. public drinking water system in order to 
maintain the highest quality of water for all citizens. And 
with the increase in diabetes, obesity and heart disease rates 
in the United States, any actions that would discourage 
consumers from drinking bottled water are not in the public 
interest. Throughout the years, bottled water companies have 
always responded to the need for clean, safe drinking water 
after natural disasters such as hurricanes, floods and forest 
fires, and in emergency situations such as terrorist attacks 
and boil alerts. However, the bottled water industry cannot 
exist only for disaster response. The vast majority of bottled 
water companies in the United States are primarily family owned 
and operated small business that depend on a viable commercial 
market to provide the resources necessary to respond in 
emergency situations. In fact, 90 percent of IBWA's members 
have gross sales of less than $10 million a year.
    In summary, bottled water is a safe, healthy, convenient 
good product that is comprehensively regulated at the federal 
and State level. IBWA stands ready to assist the subcommittee 
as it considers this very important issue. Thank you for 
considering our views.
    [The prepared statement of Mr. Doss follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Stupak. Well, thanks. We will start with questions, and 
thank you all for your comments.
    Mr. Doss, let me ask you this. Is it true 80 percent of the 
water bottlers are part of your organization, about 80 percent?
    Mr. Doss. I am sorry?
    Mr. Stupak. Water bottlers in this country, they belong to 
your organization?
    Mr. Doss. I would say we probably represent 75 percent of 
the actual facilities.
    Mr. Stupak. Is Dasani, Coca-Cola, are they part of your----
    Mr. Doss. Dasani is not a member of the association.
    Mr. Stupak. How about Nestle?
    Mr. Doss. Nestle is a member.
    Mr. Stupak. OK. And how about Aquafina? That is Pepsi, 
right?
    Mr. Doss. That is not a member.
    Mr. Stupak. So are those the three biggest, Coke, Pepsi and 
Nestle?
    Mr. Doss. The largest companies.
    Mr. Stupak. So two of the three are not part of your 
organization?
    Mr. Doss. That is correct.
    Mr. Stupak. Your standards, which track many of the things 
we recommended and GAO and the others, that is voluntary 
standards you try to have your member comply with?
    Mr. Doss. IBWA has always tried to, you know, have the 
highest possible safety standards so we have a mandatory 
requirement for our member, and if they don't meet those 
standards, then they cannot be a member of the International 
Bottled Water Association.
    Mr. Stupak. Do you do anything on the advertising then? I 
mean, we have seen these crazy----
    Mr. Doss. No, advertising is not an issue that we deal 
with. Obviously that is a case-by-case situation where there 
are State and federal laws that would allow companies to be--
action to be brought against them for deceptive or misleading 
advertising, so we don't do anything in that regard.
    Mr. Stupak. OK. So like Aquamantra about these mantras 
inherently penetrate the molecular structure of the water, you 
guys don't condone any of that?
    Mr. Doss. It is not something--the association does not 
deal with advertising issues. That is something that would be 
left to the State and federal authorities.
    Mr. Stupak. Well, the company went on to say that it 
consulted, and I use the word ``consulted'' because that is 
what it said on the Web site, with a Dr. Marura Emoto who wrote 
a book called Hidden Messages in Water, and the company said 
that he showed us the basic principles of quantum theory 
whereby the molecular structure of water was changed by a Zen 
Buddhist monk's thoughts. Based on this premise, Aquamantra 
uses the design on its labels to affect the molecular structure 
of California natural spring water to make it more refreshing 
and wholesome. Is there any water studies that a Zen monk can 
change the molecular structure of water?
    Mr. Doss. Well, I can't speak to what that company has 
found. I just can't speak to that. I don't know that they are a 
member of IBWA so I can't comment on what information they may 
have about what they say on their label or other materials.
    Mr. Stupak. Dr. Sharfstein, have you seen anything quite 
like this? Do you think those should be part of the labeling of 
bottled water, Zen Buddhist monks' thoughts that can change the 
structure of water?
    Dr. Sharfstein. I would be highly skeptical.
    Mr. Stupak. But, you know, we have seen it, and Ms. 
Houlihan pointed out and a couple others, these are just sort 
of like fantastical claims. Are they legal? Can they do it 
underneath your misbranding or false advertising?
    Dr. Sharfstein. Well, we will definitely look into this 
case. In general, misbranding pertains to whether people are 
claiming to treat disease. That is the big one. That is where 
we put our priority. If people are saying you drink this water 
and it cures your cancer, then people may not pursue cancer 
treatment.
    Mr. Stupak. So like Mr. Ricker of Poland Springs who had a 
miraculous recovery and lived nearly 52 years and it is good 
for liver and kidney diseases, is that----
    Dr. Sharfstein. Well, there were two that you--you know, 
the one with historical fable. I don't know if that is 
exactly----
    Mr. Stupak. That is Mr. Ricker.
    Dr. Sharfstein. But the other one where you said used in 
clinical----
    Mr. Stupak. Clinical tests, Philadelphia, St. Louis.
    Dr. Sharfstein. That one I think we would like to see. I 
mean, that to me strikes me as pretty, you know, worth our 
evaluating. I am not familiar with that. But I think that would 
definitely fall into something we would look closely at.
    Mr. Stupak. How about the other one? The makers of H20M 
claim that they play music and sounds at their bottling 
facility that charge the water with special vibratory 
frequencies? Would that be misadvertising?
    Dr. Sharfstein. I am not a musician but I would still 
express skepticism about that one, and I think that, you know, 
we have--the misbranding provision is really about things that 
we focus on we really think are going to pose a public health 
threat, a claim like that, and you know, the issue about 
whether it treats kidney or liver disease, this really does 
raise that issue.
    Mr. Stupak. You know, in tab 13 is that chart again, and we 
might want to put it back up on the board there. And the two 
reports by GAO and Environmental Working Group talk about the 
regulations, and you mentioned a little bit in yours too. If 
the bottlers discovered dangerous contaminants of water, they 
don't have to alert the public. Unlike municipalities, bottlers 
don't have to use certified labs. Water bottlers generally are 
not required to provide information about test results, the 
source of their products. You know, take Dasani here. We 
mentioned them today, and I have this bottle that was put on 
the airplane when I fly back and forth so I grabbed it with me 
as I was reading my testimony. When I go through and read it, 
you know, their claims aren't too outrageous. It is enhanced 
with minerals for a pure, fresh taste that can't be beat, and 
then you go to www.makeyourmouthwater.com. That is out there a 
little bit but it says bottled by CCDA Waters LLC, Millersburg, 
Pennsylvania, but then underneath it they have CT and then the 
symbol for number, 992, then they have NV 07354, NYSHD 
certificate 173 and then they have another one, L, but CT, 
would that be Connecticut? NV, would that be Nevada? New York 
State Health Department, I take it, would be New York. It 
doesn't say anything about sources or anything, so you don't 
know where this water really came from, Nevada, Connecticut, 
New York or Pennsylvania.
    Dr. Sharfstein. I could not decipher that for you.
    Mr. Stupak. Mr. Doss, can you help out on that, these 
markings?
    Mr. Doss. I can't say for sure because I obviously don't--I 
am not familiar with that brand but it may be that all of those 
states require the product to be registered like other food 
products do within the State. If you are going to sell products 
within a State, I think all food products tend to have those 
registration information on the bottles.
    Mr. Stupak. So you would have to figure out--the last one 
is probably a lot number. You would have to go through and 
figure out your lot number to try to figure out where it came 
from, right, and whether Nevada, Connecticut, New York or 
Pennsylvania, or Coca-Cola in Atlanta, Georgia, because that 
address is on there too. Really, a consumer has no way of 
knowing, and this is one of the big bottlers.
    Mr. Doss. Again, I can only tell you I think that is what 
that refers to.
    Mr. Stupak. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    Just like any food product regulated by the FDA, if 
dangerous contaminants are in the bottled water, it is 
considered adulterated by the FDA, correct, Doctor?
    Dr. Sharfstein. That is correct.
    Mr. Walden. And it violates the law if it is sold to 
consumers?
    Dr. Sharfstein. People can go to jail if they do it.
    Mr. Walden. And if we are worried about some of these 
claims on the label, isn't that really also under the 
jurisdiction of the FTC, the Federal Trade Commission, on false 
advertising and labeling?
    Dr. Sharfstein. You know, I will have to get back to you. I 
don't know if I can answer that. I think we do have certain 
jurisdiction there and I am not sure about the FTC.
    Mr. Walden. I would assume that they would but I don't know 
that for a fact but it is something we ought to look at because 
it would be helpful if they were here today and the EPA was 
here today and perhaps somebody from Coca-Cola as well since 
they are not represented on this panel but we are singling them 
out.
    Dr. Sharfstein. One thing I might want to mention is, in 
just a couple of months FDA is going to launch----
    Mr. Walden. Is your mic on, by the way?
    Dr. Sharfstein. Yes.
    Mr. Walden. OK.
    Dr. Sharfstein. In just a couple months, FDA is going to 
launch the reportable food registry that was part of 
legislation that Congress passed, and when that happens, we are 
anticipating September, companies will have to notify FDA if 
there is a product release that could pose a serious risk to 
health. So some of the gap will be filled by that but we really 
think, you know, the passage of the food safety legislation is 
necessary to really close that.
    Mr. Walden. Yes, we are hopeful that that can be brought up 
on the--Mr. Chairman, has that been scheduled for House Floor 
consideration yet?
    Mr. Stupak. Not yet. We are still working on the final 
touches.
    Mr. Walden. OK. In your testimony, Doctor, you discussed 
new FDA testing requirements for bottled water to include 
testing source water for total coliforms and establish a zero 
tolerance for E. coli. Does the EPA require testing for 
coliforms in tap water and did the EPA establish a zero 
tolerance level for E. coli?
    Dr. Sharfstein. Give me one second. I have some information 
on that right here. I was curious about that also.
    Mr. Walden. Because I think you made the case on lead, that 
you have zero tolerance for lead in bottled water but EPA 
allows a certain----
    Dr. Sharfstein. I think it illustrates the point that it is 
just a little different, the systems. My understanding is that 
public water systems are required to collect monthly total 
coliform samples throughout their distribution systems and that 
if they are positive they must be tested for E. coli. For a 
system collecting more than 40 samples per month, if more than 
5 percent are positive, that triggers a violation. If it less 
than 40 samples per month, then one positive sample triggers a 
violation. So, you know, for FDA, bottled water, if there is 
any violation that kicks in for municipal, it has to be certain 
percentage of the tests violative for it to trigger a 
violation. So the standards are slightly different. I hope I 
was able to explain that clearly enough. They do a whole bunch 
of tests----
    Mr. Walden. Are they more stringent under your regulations 
or the EPA regulations?
    Dr. Sharfstein. It is----
    Mr. Walden. Or is it just different?
    Dr. Sharfstein. They are different. I mean, you know----
    Mr. Walden. Because I know here in the District of 
Columbia, I think I am correct in saying this, that we all went 
many years drinking the tap water believing it to be safe only 
to discover that they hadn't really fully disclosed the amount 
of lead that was coming into the water through the pipes, and 
so I don't know if you ran into that in Baltimore when you were 
health commissioner there, but as I recall you advocated to 
people to buy it and it would be safer to drink bottled water.
    Dr. Sharfstein. Well, not for the population of Baltimore 
because the municipal water supply in Baltimore we felt very 
comfortable with but----
    Mr. Walden. But for public school children?
    Dr. Sharfstein. Public school children. That is right. In 
fact, I advised the school superintendent to turn off all the 
drinking fountains in the Baltimore City public schools because 
of problems that they were having with lead.
    Mr. Walden. And to go to bottled water.
    Dr. Sharfstein. And to go to bottled water across the 
system. It turned out to be cheaper also, given the expense of 
testing the municipal water because of the old buildings and 
the problems they had with the pipes in the school. So, you 
know, I certainly as a health commissioner, I think there are 
certain scenarios where, for example, after certain types of 
disruptions of the water supply, the water can be unsafe for a 
period of time and we recommended that people buy bottled water 
or boil it.
    Mr. Walden. Thank you.
    Mr. Doss, a question about this notion that consumers are 
wanting to know what it is in their bottled water. While I want 
to know that it is safe when I drink it, I am not sure I am 
going to chase down what spring it came out of or well, as long 
as I know it is safe. How many inquiries do you get through 
your association of people who say I want to know the 
ingredients, I want to know--I mean, when I take water out of 
my place here in D.C., there is no label on the tap that tells 
me all this stuff. I wouldn't know where to go in the D.C. 
system to even find out, and frankly, as long as it is safe, I 
don't care. How much of this is the case? How many people are 
rushing to you and calling your folks saying hey, I demand to 
know where this water came from?
    Mr. Doss. At IBWA, the association has hardly gotten any 
comments, any questions from consumers. I have talked to some 
of my members including our large members and our small- and 
mid-sized members, and they get very few requests. Now, I will 
say----
    Mr. Walden. And how do they handle those requests?
    Mr. Doss. They provide them with the information.
    Mr. Walden. Do they disclose?
    Mr. Doss. If they want testing results, if they want source 
information, whatever they ask for, you know, in our opinion, 
that is what they should provide, and that is, our bottom line 
is, that if a consumer has a question, we believe they have the 
right to have that information. The real issue is how to best 
provide that information. I think that is the distinction here 
and that was related a minute ago. These are two different 
systems. Bottled water is a packaged food product in a very 
different distribution system than tap water. So there are 
necessarily some differences in the way you might want to 
provide the information, and as far as the overall safety is 
concerned, again, they both have to be safe. There are 
different ways that you get to that goal.
    Mr. Walden. Because I don't think in a soft drink bottle 
they disclose where the liquid source comes from, right? 
Because they put water in a cola beverage, right? Is that 
right, Doctor?
    Dr. Sharfstein. Yes.
    Mr. Walden. Isn't that the number one ingredient, is water, 
in these beverages we all drink? And the last time I checked, 
nobody is saying tell me where the water came from that is in 
there. It is not required to be on those labels, is it?
    Mr. Doss. And that is why----
    Mr. Walden. So you are kind of being singled out.
    Mr. Doss. Bottled water is a food product so we follow the 
rules that are in place.
    Mr. Walden. Is cola a food product?
    Dr. Sharfstein. Cola is a food product and it is not 
subject to the Good Manufacturing Practices that exist 
specifically for bottled water, so there is a----
    Mr. Walden. So is there less oversight on our soda drinks 
from the FDA's perspective?
    Dr. Sharfstein. Maybe I wouldn't use the word ``oversight'' 
but I would say there is definitely more regulations and----
    Mr. Walden. On which?
    Dr. Sharfstein. On bottled water.
    Mr. Walden. Than on cola products? And I am not picking on 
cola versus uncola versus, you know, the new cola versus 
whatever. I am just talking soft drinks.
    Dr. Sharfstein. That is correct.
    Mr. Walden. So there is less oversight--well, I will use 
the term ``oversight'' but in terms of food safety issues----
    Dr. Sharfstein. Right, and there are Good Manufacturing 
Practices that apply to foods generally that apply to colas, 
and someone will tap me if I am getting this totally wrong, but 
I understand that the bottled water has a whole set of 
regulations that are really just for bottled water, and it 
relates to the fact----
    Mr. Walden. Commodity-specific----
    Dr. Sharfstein. Right.
    Mr. Walden [continuing]. Regulations which don't exist for 
soft drinks?
    Dr. Sharfstein. Right.
    Ms. Houlihan. Can I also say that one difference between 
bottled water and soda is also that people choose bottled water 
because they think it is healthier and safer than----
    Mr. Walden. Yes, but that is not----
    Ms. Houlihan [continuing]. In a lot of cases, and that is 
not the reason they are choosing colas. So I think that----
    Mr. Walden. Yes, but the question--whether they choose it 
or not, the question I thought you were getting at is, 
consumers have the right to know the source of the ingredients 
in the bottle, the labeling and all that. I mean, I want to 
know if--I may think a soda product is better than bottled 
water.
    Ms. Houlihan. Water is very different from other kinds of 
food products. It makes up more than half of our body and we 
are advised to drink at least eight----
    Mr. Walden. Right, because it helps remove toxins and 
everything else.
    Ms. Houlihan. Exactly, and so people are choosing bottled 
water in particular, not colas, because there is a perception 
that it is safer and healthier than tap water, and I think that 
is why it is being singled out here over other foods because of 
the special place that it holds in people's minds. Also, 
because it is almost 2,000 times more expensive than tap water 
and people----
    Mr. Walden. How much more expensive is a soda drink over 
tap water?
    Ms. Houlihan. Maybe a similar amount, but people are making 
really tough choices right now about their budgets and so 
bottled water is part of that.
    Mr. Walden. And I have almost doubled over my time.
    Mr. Stupak. No, that is all right. We will come back 
another time but I want to get to Mrs. Christensen for 
questions.
    Mrs. Christensen. Thank you, Mr. Chairman. I just want to 
go over the contaminant disclosure issue again so I am clear. 
According to the new reports released today, it appears that 
consumers have access to a lot more information about 
contaminants in tap water than they do about contaminants in 
bottled water in answer to some of the questions previously 
asked.
    Mr. Stephenson, under current law, municipal water 
authorities have to notify the public within 24 hours when they 
detect contaminants such as E. coli above prescribed levels in 
tap water. Is that correct?
    Mr. Stephenson. That is right.
    Mrs. Christensen. And they have to send that notice over 
broadcast media or in warnings posted in conspicuous locations?
    Mr. Stephenson. Yes, there are very specific requirements 
on how you report those.
    Mrs. Christensen. But if a bottled water company ran the 
same tests on its water and found the same level of E. coli, a 
level that both EPA and FDA say is dangerous to human health, 
they don't have to tell the FDA or EPA or the public?
    Mr. Stephenson. Or the State. Well, some States require it 
but not the FDA.
    Mrs. Christensen. A few States require it but generally no?
    Mr. Stephenson. Excuse me?
    Mrs. Christensen. Generally they don't have to report it?
    Mr. Stephenson. Generally, they don't.
    Mrs. Christensen. Now, under current law, municipal water 
systems are also required to issue annual consumer confidence 
reports that disclose any contamination problems, the likely 
source of that contamination, potential health effects of that 
contamination and information about the system's susceptibility 
to future contamination, correct?
    Mr. Stephenson. Yes.
    Mrs. Christensen. But bottled water companies are not 
required to make similar disclosures to the public?
    Mr. Stephenson. That is true. We currently don't have the 
authorities to make that requirement.
    Mrs. Christensen. Dr. Sharfstein, this is a striking 
disparity in the information available to consumers. We learn 
about dangerous contaminants in our tap water through broad 
public announcements within 24 hours but we may never learn 
about the dangerous contaminants in bottled water. Did you say 
that you supported a requirement to have the bottled water 
companies disclose test results showing contamination above the 
federal levels?
    Dr. Sharfstein. Actually, starting in September, we think, 
that requirement will take effect for contamination that poses 
a risk to the public.
    Mrs. Christensen. Is it enough to have the companies report 
their lab reports or should there be certified labs and should 
the labs be required to tell FDA when a positive result is 
found? Isn't that more reliable?
    Dr. Sharfstein. I think it is a very important question. I 
think there are two questions there, the certified lab and then 
whether labs should be required to report.
    Mrs. Christensen. Right.
    Dr. Sharfstein. So for certified labs, I think FDA would 
like to have authority to require labs if we think that that is 
important for a particular product, and I think that because of 
the broad preventive authority that this new legislation that 
has been moving through the House would give, we would be able 
to do that.
    The second question of requiring labs to report to FDA is a 
little bit more complex because there are so many tests that 
are done.
    Mrs. Christensen. Just the positive ones.
    Dr. Sharfstein. Right. I understand. The concern that is 
expressed there is whether or not it inhibits the private 
sector from testing at all. If they have a good testing program 
in place where there are identifying and keeping things out of 
the system, you know, should they be reporting every single 
positive, which ones should get reported. Those are questions 
that are a little bit more complex because you could be 
drowning, and if you are thinking not just for water but all 
the different foods, all the different tests, we don't want to 
inhibit companies from doing their own testing if they have 
good preventive plans in place. We want to not be missing the 
forest for the trees in terms of all the information coming to 
us. So that question of how much to require, where to get it 
from is sort of more complex issue that we would probably look 
at, you know, in a particular industry, a particular situation 
like, you know, certain types of tests we probably would want 
to know because they would be so serious.
    Mrs. Christensen. And earlier this year, the subcommittee 
held two oversight hearings on salmonella poisoning in peanut 
products that caused multiple deaths and dozens of illnesses, 
and we learned that the Peanut Corporation of America received 
positive tests for salmonella and was not required to disclose 
them to anyone, and FDA didn't have the access to those results 
and couldn't access them until people fell ill by invoking 
another law, the bioterrorism law, and so the same legal 
loophole applies to bottled water companies. Although the 
municipal water authorities are required to disclose their test 
results, FDA cannot compel bottled water companies to disclose 
theirs.
    So Ms. Houlihan, if a bottled water company tests its water 
and finds dangerous levels of E. coli, as far as you 
understand, is that required to disclose those results to the 
public?
    Ms. Houlihan. As far as I understand, that is the case. We 
found a lot of bottled water brands that are posting, 18 
percent of the brands that we looked at that are posting full 
water quality test reports online, and we think 100 percent of 
companies should be doing that and letting people know right 
away about contamination.
    Mrs. Christensen. I am not really--even though I made a 
reference to peanut butter, I am not in any way suggesting that 
the water issue is similar. But one important lesson that we 
learned is that sometimes disreputable companies have warning 
signs long before major problems arise because the systems are 
faulty, and if federal or State officials had access to that 
testing data, they might be able to flag small problems before 
they become big ones.
    Mr. Doss, your organization represents, I think you said 
about 75 percent of the bottled water industry. Do you support 
a requirement that bottled water companies make their test 
records available to the FDA during routine inspections?
    Mr. Doss. We do.
    Mrs. Christensen. And I am sure Dr. Sharfstein already 
answered that question. I guess I am out of time right now and 
I will just hold for a second round.
    Mr. Stupak. Thank you.
    Mr. Burgess for questions, 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. I apologize for being 
gone during your testimony and the earlier questioning. Can 
anyone tell me, if bottled water has a certain standard, what 
about our cola drinks? Are those bottles held to the same 
standard as bottled water?
    Dr. Sharfstein. So cola drinks are considered food and 
there are food Good Manufacturing Practices that they are held 
to but cola drinks are not held to the bottled water Good 
Manufacturing Practices which are sort of in addition to the 
general Good Manufacturing Practices.
    Mr. Burgess. To the best of anyone's knowledge, there is no 
difference in the way any of these compounds would leach out of 
the plastic into liquid phase whether it be water or cola 
drinks. Is that correct?
    Dr. Sharfstein. Yes, I don't know if I know enough to 
answer that question. I do think that the point that is there, 
you know, from a food safety perspective. You know, there is 
not a--from a food safety perspective, water has a whole 
additional set of regulations compared to cola. It really 
depends on--and, you know, public health, you are saying 
compared to what. If you compare bottled water to cola, it has 
got a whole additional set of regulations. If you compare 
bottled water to municipal water, then there are certain 
disclosure requirements of municipal water that don't apply to 
bottled water. So it is sort of just your vantage point, but 
from a food safety perspective, you know, there is a whole 
additional set of regulations that apply to bottled water 
compared to cola.
    Mr. Burgess. Well, what about the water that is 
manufactured and sold with caffeine added to the water? Does 
that fall under the foodstuff or is that a water?
    Dr. Sharfstein. That is not a water.
    Mr. Burgess. That is not a water?
    Dr. Sharfstein. Yes, I think--and somebody is going to tap 
me if I get this wrong but I am pretty sure that it is not a 
water. It depends. I think some of those may be--people may be 
attempting to market them as dietary supplements and other 
things but what they are actually marketed as is a whole 
separate discussion, but I don't think they are considered a 
water if you put extra caffeine in.
    Mr. Burgess. It just really underscores the complexity of 
the process that you have to deal with.
    Now, let me ask the GAO, on the report that two people to 
inspect the $11 billion water industry, and 4 years ago the FDA 
changed the risk assessment for bottled water from low risk to 
high risk, so the question then comes, how many inspectors 
should be required? If two are not enough, what is our limit? 
We will be doing the agriculture appropriations bill this 
afternoon which will have the funding for the Food and Drug 
Administration in it. How do we know that we have got the right 
number of inspectors so that we can then know that we have the 
right appropriation attached to the FDA?
    Mr. Stephenson. That is a good question, and we don't have 
a precise number just for this segment of FDA's overall 
responsibility. We have said designating food safety a high-
risk area over the past 2 years that the resources are 
inadequate to do the job right now, and we have pointed out 
from a broader standpoint that food safety is spread over a 
number of different agencies and of those agencies, FDA seems 
to get the smallest proportion of the budget yet it has 80 
percent of the responsibility. So I don't know whether two is 
right or four is right or six is right just for bottled water. 
All we are just doing is stating a fact, that that is how many 
FTAs are currently dedicated to inspecting bottled water 
facilities.
    Mr. Burgess. And that in fact does not seem to be a 
sufficient number?
    Mr. Stephenson. It does not seem to be a sufficient number, 
given the number of bottled water facilities.
    Mr. Burgess. Also in your testimony, you note that three-
quarters of the water bottles produced in the United States in 
2006 were recycled. Do we know about the rates of recycle for 
other beverages?
    Mr. Stephenson. I think it is probably similar for all 
plastic bottles. With bottled water being a growing share of 
the market, there are more bottles dedicated to water than soda 
percentage-wise.
    Mr. Burgess. So numerically, there are more in the 
environment----
    Mr. Stephenson. Right, and this isn't a volume problem, as 
we noted. It is less than 1 percent of what is going into a 
landfill. Nevertheless, they never decompose and they stay 
there forever, and recycling is a good thing in general.
    Mr. Burgess. And I would agree with that.
    Dr. Sharfstein, in the GAO report it states that the FDA 
currently assigns two people yet 4 years ago the Food and Drug 
Administration changed the risk assessment from low to high 
risk, so again, I would ask the question, how many inspectors 
should now be assigned to oversee the Code of Federal 
Regulations as it relates to bottled water?
    Dr. Sharfstein. I am not sure that is right, that we 
changed it to high risk. I think that in general compared to 
other foods, we considered bottled water in the lower risk 
side. I think that there are two issues. One is the frequency 
of inspection and the other is all the things that go with 
inspections, and one of the key things we talked about is just 
knowing who is making bottled water, and we have a hard time 
under the current food safety laws really understanding that 
because by law, people can register on paper and the category 
is called soft drinks and waters, so everyone is sort of thrown 
in together so we don't have a very good idea--we don't have as 
good an idea as we would like to have or we should have exactly 
who is making it. That is sort of the first step to have, like, 
you know, a solid system. And then we would like the ability to 
require preventive plans and, you know, all the key basic steps 
there, and then you put inspections as part of that strategy. 
But just thinking of inspections alone with the rest of the way 
it is, it is probably going to leave some opportunities for 
strengthening the system off the table if you are just thinking 
of inspection alone which is why we would like the parts of the 
law giving us access to records, giving FDA the ability to 
require preventive plans, certified labs if we think necessary, 
other things like that.
    Mr. Burgess. Let me ask you a question in the time I don't 
have remaining, and it is not fair to ask you this but I will 
do it anyway. We are going to vote on the agriculture 
appropriations bill today or tomorrow. Is the number we have in 
the bill for the Food and Drug Administration, do we have the 
right number there?
    Dr. Sharfstein. Yes. The President's budget and what came 
out of committee is a historic increase and I think there is no 
question the Administration responded very strongly to GAO's 
finding this would be a high risk and putting a lot more 
resources into food safety, and if we get that combined with 
additional authority, I think we will be able to strengthen the 
system considerably.
    Mr. Burgess. And just for the record, Mr. President, the 
beautiful campus that they occupy is actually part of the GSA 
budget so none of your food safety dollars are going to build 
that lovely campus which we are all so proud of. I will yield 
back.
    Mr. Stupak. Thanks, Mr. Burgess.
    Let us go another round of questions. Dr. Sharfstein, if we 
do testing and if they have to report their positive results, 
wouldn't after a while if you see a continued positive results 
for E. coli or something from a plant that indicates you have a 
problem, we have to get there or at least increase inspections, 
like the peanut butter one with the salmonella. We had report 
after report of problems but no one ever received a report and 
no one ever knew, at the FDA, at least, what was going on 
there.
    Dr. Sharfstein. I agree with you. FDA has to respond to 
problems very aggressively and has got to be able to follow up 
with manufacturers that aren't meeting standards and if 
necessary shut them down, and, you know, in recent weeks we 
have taken action against some firms----
    Mr. Stupak. But you wouldn't know unless you received 
positive results, I mean, unless you received the results. 
Somewhere, someone at the FDA has to receive results and look 
at them, right?
    Dr. Sharfstein. Well, it could be that we got a complaint 
and we investigated. It could be testing that FDA does, and FDA 
does do some testing. So we can find out problems. We could 
have somebody call us and say there is a problem with this 
company, and so that leads us to investigate. But once we find 
the problem, I think it is important to really follow up until 
that problem is clearly resolved.
    Mr. Stupak. Well, how about for those bottlers who use 
municipal water as their source? Wouldn't it make sense to 
require them to post a link to the required EPA testing results 
because they have to do it once a year? Wouldn't that make 
sense to require them to--25 percent, I think, Ms. Houlihan was 
in your report, 25 percent of the bottlers use tap water, so 
why wouldn't we just require them to post their Web site?
    Dr. Sharfstein. Right. I can totally understand why that 
would make sense, why consumers might be interested in that. 
But the thing for FDA is, the standard that we have for putting 
something on the label is that it would have to be misleading 
without it, and so we can't--you know, we use that to say that, 
you know, something has got to be there or it is misleading 
without it, and that is a hard thing to put that, you know, to 
kind of file that in that category. So that is not to say we 
wouldn't support it but whether we could do it under our 
misleading, you know, authority, that we think is questionable 
and that it might require a different authority.
    Mr. Stupak. It is misbranding authority that you have?
    Dr. Sharfstein. Yes, the misbranding authority. The basic--
if we were to do it, and this would--you know, what standard 
would we have to meet, and it would be that it is misleading 
without it, and, you know, we don't require it for other types 
of foods. You know, would it really be misleading consumers not 
to have that, and that is a hard standard for us to reach. 
There may be a better way for Congress to achieve that.
    Mr. Stupak. Mr. Stephenson, if I may, on page 22 of your 
report you referred to a poll conducted by Water Research 
Foundation that approximately 56 percent of bottled water 
drinkers cite safety and health as the primary reason they 
sought an alternative to tap water. So is it fair to say that 
the number one reason people are buying bottled water is 
because they think it is safer and healthier than tap water?
    Mr. Stephenson. Well, there is that poll and several other 
research studies that have concluded that, although convenience 
is a top reason as well.
    Mr. Stupak. Well, what bothers me about that is the 
perception that bottled water is healthier than tap water, in 
many instances, bottled water is nothing more than tap water. 
The Natural Resources Defense Council, they estimated, as I 
said, 25 percent of bottled water is just tap water in bottles. 
Sometimes it is treated, sometimes it is not. So I guess my 
question is, and Ms. Houlihan, I think you cited in your 
report, is that accurate that 25 percent of the bottled water 
is just tap water in a bottle?
    Ms. Houlihan. Those are the numbers that are publicly 
available, and I think it is a big question as to whether it is 
even more than that because in so many cases we just don't have 
the information on what the source actually is and we found 
almost a third of all bottled waters have no information on 
their label.
    Mr. Stupak. But if they take it from tap water and do 
something like reverse osmosis or something, then they don't 
have to claim it is tap water, right?
    Ms. Houlihan. That is right, and there is a provision that 
requires that bottled waters be labeled as from a municipal 
supply if they have not undergone any additional treatment, but 
any treatment that is, according to FDA, quote, suitable, 
allows that bottled water manufacturer not to use that label 
and just to call it this is a purified water without giving 
people information on what the treatment processes actually 
were.
    Mr. Stupak. Well, like I said, I got this on the airplane 
yesterday. Does Coca-Cola use municipal water for its Dasani 
bottled water?
    Ms. Houlihan. You can't tell from the label. There is no 
information at all on the water source for that product.
    Mr. Stupak. How about Pepsi there that Dr. Burgess is 
drinking, the Aquafina bottled water? Does that come from a 
municipal source?
    Ms. Houlihan. Aquafina, we have that label in one of the 
examples, if you could pull that up. So on the label, it is 
labeled as from a municipal supply for Aquafina. It doesn't 
name the municipal supply, which is what so many other bottled 
waters are choosing to do.
    Mr. Stupak. But do we know if they do any further treatment 
or anything of it? Would it have to be on there?
    Ms. Houlihan. It doesn't have to be labeled at all, and we 
found 44 percent of all labels don't provide any information on 
treatment.
    Mr. Stupak. Mr. Doss, if Aquafina was part of your 
organization, I understand it is not, but if it was, would the 
have to put on there whether they further treated or would they 
just put down municipal source?
    Mr. Doss. No, they wouldn't, and I think the issue here is 
one maybe of misunderstanding. Purified bottled water, which is 
what Dasani is and what Aquafina is, is not just tap water in a 
bottle.
    Mr. Stupak. Correct. Something else happens to it.
    Mr. Doss. When water comes in from a municipal source, it 
goes through reverse osmosis, it goes through UV light, it goes 
through ozonation and then in a sanitary condition is placed in 
a bottle. Now, those purified waters must meet the U.S. 
pharmacopoeia standard for purified or sterile water. If it 
dose not, then that label must disclose in that bottle that it 
comes from a municipal source. So in that case, that water 
because it doesn't list it as from a municipal source, meets 
the U.S. pharmacopoeia standard for purified or sterile water, 
and that is the big difference, and that goes to the sourcing 
of the water. It would be not--to list that this source was the 
Dayton whatever county municipal water, that water is quite 
different once it gets in that bottle than when it started out, 
and that is the distinction here.
    Mr. Stupak. OK, let me ask you this. Let us go back to 
Dasani then. And again, I am reading the label right here on 
what I got here. It says ``noncarbonated, crisp, fresh taste. 
Dasani is filtered through a state-of-the-art purification 
system and enhanced with minerals for a pure, fresh taste that 
can't be beat.'' And then if you go on the other side of the 
label, it says purified water, magnesium sulfate, potassium 
chloride, salt, and then it has as asterisk, ``adds a 
negligible amount of sodium,'' then it has a cross on it and it 
says ``minerals added for taste, purified by reverse osmosis.'' 
So to get that clean, crisp taste, are the chemicals they are 
adding then magnesium sulfate, potassium chloride, salt and 
sodium or is it other chemicals?
    Mr. Doss. I can't speak to Dasani specifically but what is 
done sometimes is that the water comes in from a municipal 
source, it is purified by reverse osmosis and other treatments 
and then minerals are added back for taste. That is what they 
are disclosing. Again, I can't speak to that specific label but 
in general that is oftentimes what happens.
    Mr. Stupak. OK. I guess my time is up.
    Mr. Walden, questions?
    Mr. Walden. Thank you.
    First of all, what the chairman cited, are those chemicals 
or minerals?
    Mr. Doss. I believe they are minerals that have been added 
for taste, and that is why they disclose it on the label. They 
are meeting the labeling requirements. They are making sure 
that they are informing those who buy it that this is a 
purified water with minerals added back.
    Mr. Walden. And if they added other things into the water, 
would they have to disclose that?
    Mr. Doss. I believe they would. It then is a question of 
the standard of identity for bottled water, which we talked 
about which specifically says if you are spring water, you have 
to do this, if you are purified water, you have to do that. So 
what----
    Mr. Walden. So there are already rules that say that?
    Mr. Doss. There are rules that say exactly what you must do 
if you want to say you are a purified water, a spring water, an 
artesian water, well water.
    Mr. Walden. All right.
    Mr. Doss. If you then add something else to the water, then 
for labeling purposes you would probably--and this is where 
FDA--I will have to make sure we can get back to you on this 
specifically but I think in that case, FDA would say you need 
to then make sure you are saying this is purified water with 
minerals added back, and I think that is why they do it.
    Mr. Walden. Dr. Sharfstein, do you know or do your folks 
know if that is correct?
    Dr. Sharfstein. The question is, what you are allowed to 
put back in?
    Mr. Walden. Not what you are allowed to put back in but 
that which you put back in, do you have to disclose on the 
label?
    Dr. Sharfstein. I am getting a yes, it is required.
    Mr. Walden. So it is already required? If I am a bottler of 
water and if I go through reverse osmosis and the UV and all 
that and then I add things back in, I have to put that on the 
label?
    Dr. Sharfstein. That is what I am understanding.
    Mr. Walden. OK. I want to ask about the DEHP issue. In your 
testimony, you state the FDA has decided to move forward on 
making a decision on DEHP. Can you elaborate on this and tell 
us when we can expect a ruling? That is actually what I hear. 
If I hear anything about bottled water, it is about this 
discussion about what is in the plastic.
    Dr. Sharfstein. This is where it gets a little bit 
confusing, but basically in the mid-1990s when this was 
originally done and this particular chemical was deferred. The 
reason it was deferred is because it had been marketed prior to 
1958 and had a special grandfather-like provision as a food 
additive, and it was thought that it was in plastic and 
therefore this provision of the law that we are talking about 
conflicted with another provision of the law. Our understanding 
has changed since that time. In fact, we don't believe that it 
is being used in water bottles or water caps right now, and as 
a result of that, the concern that existed--and I am a 
pediatrician and not a lawyer--basically the legal conflict 
that was of concern in the mid-1990s is not of concern now and 
that we can move forward and basically testing whether or not 
there is a reason to--there has to be an affirmative reason not 
to have the same standard as municipal water so, you know, my 
presumption would be that we will move forward with the 
standard for DEHP like we have for all the other contaminants. 
What held it up before was really the grandfather legal issue, 
and I think that that may not apply anymore and we can move 
forward.
    Mr. Walden. But I want to get to sort of the heart of the 
matters for the people I represent. You are telling me that 
plastic in the cap here doesn't have the phthalate?
    Dr. Sharfstein. In our communications with industry, as I 
understand, we do not believe that this is regularly used in--
--
    Mr. Walden. Mr. Doss, can you speak to this issue?
    Mr. Doss. I can. It is my understanding that none of the 
plastic containers used for bottled water contain DEHP at all, 
not the PET, not the polycarbonate, not the HDPE. So none of 
the bottled water containers contain any DEHP. However, the 
International Bottled Water Association for purposes of parity 
several years ago, we have a standard in our model code that is 
exactly the same as the EPA, more for parity reasons, but none 
of the plastic containers used for bottled water contain DEHP.
    Mr. Walden. From your knowledge, does that apply also to 
Dr. Burgess's Pepsi bottle there and other bottles used for 
sodas?
    Mr. Doss. If they are using PET, which I believe most are, 
if they are using polycarbonate or HDPE, which are the three 
primary uses for all beverage products, then there is no DEHP 
in them.
    Dr. Sharfstein. So the DEHP issue is really, is it in the 
water separately just because it is in the environment and, you 
know, that----
    Mr. Stupak. Is there a number that you use for DEHP like 
PET has a number 1 on it, and that is what this one is here. 
But there is usually a symbol. Is there a symbol that if you 
use DEHP in a plastic----
    Dr. Sharfstein. I will have to get back to you on that.
    Ms. Houlihan. Can I also add----
    Mr. Walden. Go ahead. I actually have another question, 
though, I want to get to.
    Ms. Houlihan. The food contact notifications that EPA has 
approved show at least 100 different other kinds of plastic 
additives that could leach into the water, so this is a problem 
that is much bigger than DEHP.
    Mr. Stupak. Go ahead, Mr. Walden.
    Mr. Walden. I just wanted to get to another point because 
we are so focused, and I realize that is the focus of the 
hearing is on bottled water and where that water comes from and 
all of that, but I am sitting here thinking, if I buy orange 
juice in a carton that is made from concentrate, what percent 
of that is water? It has to be a huge percent, right? Because 
we are adding water in and then the concentrate. And if the 
issue here is the quality of the water and the source of the 
water going into what we consume, then it seems to me we are 
kind of myopic here just looking at bottled water because 
somebody doesn't like bottled water or presumes that it has a 
higher sort of threshold in our minds about purity. I would 
suggest that a lot of us drink orange juice thinking that is 
better than perhaps bottled water because you get other--no 
offense, but you get other things with it, and yet I am 
thinking 80 percent, 90 percent of what I am getting in the 
carton of orange juice unless it is, you know, fresh squeezed 
only, not from concentrate, is probably water. And so from the 
FDA's standpoint, do you look at the water that goes into that?
    Dr. Sharfstein. That is part of what makes food safe is the 
water and they need to meet food safety requirements, and----
    Mr. Walden. And that is the same thing you apply to the 
bottled water, right?
    Dr. Sharfstein. It is more we apply to the bottled water 
because we----
    Mr. Walden. OK.
    Dr. Sharfstein. So as I was saying before, a lot of this is 
compared to what--if you are comparing bottled water to other 
foods or other foods that contain water, there are additional 
regulations that apply. If you are comparing it to municipal 
water, then there is more disclosure on municipal water than 
there is on bottled water.
    Mr. Walden. Well, I----
    Dr. Sharfstein. It is just your point of comparison.
    Mr. Walden. Yes, but I guess the question would be, where 
is that disclosure? I mean, I have never even--at least there 
is something on this label. In my hometown of Hood River, we 
have it out of a spring but I don't get a notice on my tap or 
on my water bill, or here in the District of Columbia, for 
heaven's sake, I mean, what it runs through to come out of my 
tap is scary. That is why I put a filter on the end and then 
refilter it in another deal and, you know, all of that. So 
anyway, I am over my time. I am done. Thank you.
    Mr. Stupak. So you get from a municipal water supply and 
you don't get a notice every year? We get a letter, seriously.
    Mr. Walden. Probably. And I rush out to my mailbox to read 
it.
    Mr. Stupak. OK.
    Mr. Walden. And, you know, it is like the sewer notice I 
get here. It tells me that when it rains they inflate these 
inflatable things to keep the sewage from rushing out into the 
Potomac unless it rains too much and then they deflate them 
because they cause too much problems. But that is a whole other 
issue.
    Mr. Stupak. No, we don't want them releasing untreated 
sewage in our waters, that is for sure.
    Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Stephenson, I note that in your report the surveys were 
done in the 50 States and the District of Columbia. Any reason 
why the territories are not included or are they generally not 
included in surveys done by GAO?
    Mr. Stephenson. No, no particular reason, just the 
methodology we chose.
    Mrs. Christensen. But they are not generally excluded 
just----
    Mr. Stephenson. No.
    Mrs. Christensen [continuing]. That in this particular----
    Mr. Stephenson. No, a limited amount of time, a limited 
amount of resources dictated 50 States and the District of 
Columbia.
    Mrs. Christensen. And Dr. Sharfstein, in your testimony you 
say that FDA has broad authority over food that is introduced 
or delivered in interstate commerce. So if it is just within a 
state or within a territory, FDA doesn't have any jurisdiction 
or do you work with the States then and the territories?
    Dr. Sharfstein. That actually is a pretty broad statement 
because if the bottle comes from outside the State or the cap 
comes from outside the State, even if it is just sold within 
the State, it counts as interstate, and there is a presumption, 
I understand, that it would be interstate, but in theory there 
might be products that could be challenged, our authority over 
them, although I am not aware that we heard about a problem 
that we haven't been able to get to either directly or through 
the State.
    Mrs. Christensen. Mr. Stephenson, we have talked a lot 
about whether bottled water is safer and healthier and there is 
disagreement on that but there is no disagreement on the fact 
that bottled water uses more energy to produce and deliver. On 
page 26 of your report, there is a quite amazing statistic 
where you refer to a study by the Pacific Institute which 
examined how much energy it takes to bring bottled water from 
different locations throughout the world to L.A., and in your 
report this is what it says. ``The Institute estimated that the 
total energy required to bring a typical one-liter bottle of 
water weighing about 38 grams to a consumer in Los Angeles 
would typically range from about 1,100 to 2,000 times the 
energy cost of producing tap water.
    Mr. Stephenson. That is true.
    Mrs. Christensen. So if I drink a single bottle of Evian or 
Fiji or some other bottled water, which I may not ever drink 
again, from overseas, I could be using up to 2,000 times more 
energy than if I just walked over to my sink and filled up a 
glass?
    Mr. Stephenson. That is true. The import bottled water 
accounts for a very small percentage of the total bottled water 
but that is true.
    Mrs. Christensen. I see. OK. The study cited in the GAO 
report also describes how transporting these bottles can be the 
single biggest cost. According to that study, transportation 
energy costs can be as high as 57 percent of the total energy 
costs for spring water bottled in France, transported overseas 
by cargo ship and transported by rail from the eastern United 
States to Los Angeles.
    Mr. Stephenson. That is correct.
    Mrs. Christensen. Your report also has some other findings 
related. For example, you concluded that most plastic water 
bottles are discarded rather than recycled.
    Mr. Stephenson. Yes, we estimate 25 percent are recycled, 
so 75 percent are discarded.
    Mrs. Christensen. So Ms. Houlihan, how did we get here? Why 
do consumers pay so much, hundreds of times more for bottled 
water, taking thousands of times more energy to produce?
    Ms. Houlihan. You heard some of the marketing claims that 
are used by the industry and I think a lot of people are under 
a misperception that bottled water must be safer than tap 
water. A lot of people believe that it is free of contaminants. 
In fact by law, it is not required to be any safer than tap 
water. When we tested 10 major brands of bottled water, we 
found 38 different pollutants, everything from disinfection 
byproducts to radioactive isotopes, even traces of Tylenol and 
fertilizer residues. So one thing that we need when it comes to 
the bottled water industry is just more daylight, information 
for consumers on where that water comes from, how it is treated 
and what is in it.
    Mrs. Christensen. I think it is really important for the 
information to be there so that people can make knowledgeable 
judgment.
    I certainly understand that bottles are convenient, but if 
we are going to use them, isn't there a better way than going 
into the landfill. This bottle of water is bottled in Virginia 
and is transported just a few miles from here to the Capitol 
and it is biodegradable. Mr. Doss, you represent the bottled 
water companies. How many of them are using biodegradable 
bottles?
    Mr. Doss. I am not sure exactly how many are using 
biodegradable bottles but I will say that as a general 
statement that bottled water companies like other food industry 
companies are trying to do whatever they can to reduce their 
environmental footprint. Obviously, going to bottles such as 
those is one way of doing it. We have made significant efforts 
to lightweight the bottled water containers. Anyone who drinks 
bottled water knows these days they are much lighter weight 
which uses less plastic. We also have some of our companies 
that are using recycled content, less virgin materials. So 
bottled water is trying to do what it can to reduce the 
environmental footprint, but I think it is important to 
recognize that bottled water is just one of thousands of food 
products on the market in plastic, and in fact, we are only 
one-third of 1 percent, as reported in the GAO report, of the 
entire waste stream in the United States so I think that any 
efforts to reduce the environmental impact of packaging has to 
focus more broadly on all consumer goods.
    Mrs. Christensen. Absolutely. Thank you for your answers.
    Mr. Stupak. Thank you.
    Mr. Burgess, let us get 5 minutes in before we have to go 
for votes.
    Mr. Burgess. Great. Thank you.
    Dr. Sharfstein, just to follow up a little bit on what Mr. 
Walden was talking about on the lawsuit with the phthalate DEHP 
that has been held up. I think Mr. Stupak referenced it has 
been 15 years in the making. You are now prepared to issue a 
ruling in September. Do I understand that correctly, on DEHP? 
The FDA is prepared to go ahead with that ruling now or is 
that----
    Dr. Sharfstein. So there is questions whether we set a 
standard for bottled water, and our intent is to proceed with 
setting a standard for bottled water. That is just a matter of 
preparing the standard, getting it going. If we come across 
some reason why this doesn't apply to bottled water at all, we 
are permitted to make the statement that it doesn't apply to 
bottled water at all but it is not obvious to us there is such 
a compelling reason at this point, so we would anticipate then 
going forward and setting a standard. So at that point is just 
as long as it takes to do. What is in the law, and this gets, 
you know, there is a 180-day standard in the law which is that 
if EPA sets the standard, FDA needs to set a standard at least 
180 days before so that it can take effect at the same time as 
the EPA standard. But with this one where they waited so long 
because of this legal thing, that is sort of out the window. It 
doesn't really apply because the EPA's standard went into 
effect so long ago. So really, we would just like to do it in a 
reasonable time frame.
    Mr. Burgess. And at this point, any preview, any look ahead 
as to what that standard may be?
    Dr. Sharfstein. Sure. It would just be the--if we were to 
do it, it would be the same standard that EPA has unless we had 
a really good reason otherwise, but that would be the 
assumption, just like we have done for almost all the other 
contaminants, the same standard as EPA.
    Mr. Burgess. Mr. Chairman, on the issue of the high risk, 
low risk, apparently there was a ruling issued by the FDA in 
2005 in the risk assessment, and I have a copy of that. With 
your permission, we will make that available to the committee 
for its consideration and adding it to the record.
    And then finally, let me just ask a question about 
recycling, and really this is for everyone on the panel, about 
the compounds leaching out of the plastic in greater amounts in 
recycled materials than native or first-run materials. So is 
that a real concern for us to have? Are there going to be 
different standards for the recycled bottles or should there be 
different standards? Do consumers need to be aware of any 
difference between a recycled bottle and a first-run bottle?
    Ms. Houlihan. We looked at FDA reviews of additives in 
plastic and found that there are over different compounds that 
could leach out of plastic, so the question you have raised is 
a very important question and we think not only do recycled 
bottles need to be more closely inspected and tested with 
regard to that but also new bottles, what is coming out of the 
plastic into waters, and that kind of testing is not required. 
We fully support the greater rates of recycling in industry. 
That is just a smart move overall.
    Mr. Burgess. Is there another secondary use for the 
recycled plastic water bottle other than re-creating another 
plastic water bottle? Can they be used in building materials or 
is there any other use for these bottles?
    Ms. Houlihan. That is a fabulous question, and I think we 
are creative enough in this country to come up with other uses 
that don't involve direct contact with water.
    Mr. Burgess. Mr. Doss, do you have an opinion?
    Mr. Doss. I don't know anything specifically about the 
issue you just raised but I do know that FDA has to clear all 
contact packaging materials. So if FDA clears it, then the 
manufacturer is able to use it and they have made the 
determination that they are safe to use.
    Mr. Burgess. So we come to Dr. Sharfstein.
    Dr. Sharfstein. There has got to be a standard of safety. 
Whether it is recycled or not recycled, there has got to be a 
standard of safety, and so that is what FDA enforces, and 
understanding in light of, you know, new evidence that comes 
out about the particular substances and the latest science and 
the different concerns people have, FDA's job is to weigh that, 
but at the end of the day, it has to be a standard of safety 
and it has got to apply no matter what is in the package.
    Mr. Burgess. So where are we right now with the issue of 
recycling? Should consumers be concerned about buying bottled 
water in a recycled product? Are you testing these products 
currently, or even are there any available?
    Dr. Sharfstein. Well, we test the water, you know. When we 
test water, it could be from a recycled bottle or not, but I am 
not aware of any special concerns for recycled plastic but I 
think if there are concerns people have they should share them 
with the agency.
    Mr. Burgess. And I guess I don't really even know enough to 
know whether these recycled materials are then broken down and 
reconstituted or do we just simply wash out the bottle and put 
a new cap on it. But, I mean, obviously the push is to recycle 
so we are going to be seeing more of these products on our 
shelves and in our stores.
    Dr. Sharfstein. I think you are illustrating why the job is 
so challenging because products change and FDA has to be up on 
them so we can enforce the same basic safety standards.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Stupak. Thanks, Mr. Burgess.
    Just one last question and we will close the hearing. Mr. 
Stephenson, in your GAO report that we talked about today about 
consumer confidence reports, and in 1996 Congress directed the 
FDA to assess the feasibility of providing bottled water to 
consumers with the functional equivalent of a consumer 
confidence report, and according to your GAO report that is 
released today, on August 25, 2000, FDA concluded that it would 
be feasible to provide consumers with some of the information 
contained in the consumer confidence report directly on a 
bottle label and access the remaining information through an 
address or phone number, and that is tab number 3 there in the 
document. Is that correct?
    Mr. Stephenson. Yes, that is right.
    Mr. Stupak. So Mr. Doss, any reason why your organization 
would object to that or do you think we should have a consumer 
confidence report for bottled water?
    Mr. Doss. Well, as I think was reported in their study, 
they did say it was feasible. They didn't exactly say what was 
feasible to put on the label. I think they were quite skeptical 
of putting some of the contaminants, et cetera on the label 
because it would just clutter the label. Now, as I said before, 
I think that the bottom line for us that consumers ought to be 
able to get information and we think that a telephone number, 
call the company and request that information is the best way 
to do it and almost all bottled waters currently as well as 
other food products have a phone number at least that a 
consumer could call the company and say could you send me the 
information and that information should be sent, and if it 
isn't, I would say go find another product to buy.
    Mr. Stupak. So you don't mind the phone number but you 
don't want any other information?
    Mr. Doss. We don't.
    Mr. Stephenson. Mr. Chairman, I think there needs to be 
some specificity in what is going to be required in those 
confidence reports. When were checking labels and Web sites, it 
was very difficult to get the kind of information we were----
    Mr. Stupak. Sure. Your report didn't say put the whole 
report on the bottle.
    Mr. Stephenson. It doesn't have to be on the label.
    Mr. Stupak. Just that some information should be on there 
and there should at least a phone number to back it up if you 
want further information.
    Mr. Stephenson. That is right.
    Mr. Stupak. Well, that concludes all of our questioning. I 
want to thank all of our witnesses for coming today and for 
your testimony.
    The committee rules provide that members have 10 days to 
submit additional questions for the record. That concludes our 
hearing. This meeting of the subcommittee is adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
